No. 20-123

31n the
*upreme Court of tbe

4§tate5

JASON EDWARD RHEINSTEIN,
Petitioner,
v.
ATTORNEY GRIEVANCE COMMISSION OF MARYLAND,
Respondent.
On Petition for a Writ of Certiorari to the
Court of Appeals of Maryland
PETITION FOR A WRIT OF CERTIORARI

JASON EDWARD RHEINSTEIN
PETITIONER PRO SE
P.O. Box 1369
SEVERNA PARK, MD 21146
(410) 340-8396
JASON@JER-CONSULTING. COM

JULY 27, 2020
SUPREME COURT PRESS

•

(888) 958-5705

•

BOSTON, MASSACHUSETTS

1

QUESTIONS PRESENTED
Before this case, a host of federal courts had held that pre-removal discovery
requests, which have not become due, are nullified upon removal of a case to federal
court because they are not "proceedings" within the meaning of 28 U.S.C. § 1450, and
thus do not travel to the federal court. Likewise, a host of federal courts had also held
that removal leaves nothing behind in the state court. Relying on these holdings, Petitioner maintained below that pre-removal discovery requests issued in this case had been
nullified upon removal of the case to federal court, and thus, would have to be renewed
or reissued to be effective. Respondent was notified of Petitioner's position, but rather
than renewing or reissuing the requests, it filed a discovery sanctions motion against
Petitioner for not answering them. The lower courts rejected Petitioner's federal law
argument and entered a default judgment against him, the effect of which was
supposed to be Petitioner's deemed admission of only the original allegations in the
charging document commencing the case. Because of the procedures that occurred,
however, Petitioner was also denied a trial as to scores of new allegations, hereinafter referred to as "unalleged contentions," which appeared for the first time in a
proposed opinion, authored by an attorney for Respondent, after the default judgment was entered. Petitioner was not allowed to file a written response to the proposed
opinion, and based upon its acceptance of the "unalleged contentions," the lower court
disbarred Petitioner. The questions presented are:
1. Whether the lower courts misapplied important principles of federal removal
law and erred in concluding there had been a failure of discovery in this case

because by operation of federal law, pre-removal discovery requests, which have not
yet become due, are nullified upon removal of a case from state court to federal
court, since they (i) do not travel to the federal court, as they are not "proceedings"
within the definition of 28 U.S.C. § 1450, and (ii) cannot remain in the state court
either because removal of a case leaves nothing behind in the state court.
2. Whether the Maryland courts violated the Petitioner's due process rights, as
guaranteed by the 5th and 14th Amendments to the U.S. Constitution, by denying
him reasonable notice and opportunity to defend the "unalleged contentions."

111

LIST OF PARTIES
The style of the case identifies the only parties involved in this proceeding.

iv

LIST OF PROCEEDINGS
Attorney Grievance Commission of Maryland v. Jason Edward Rheinstein,
Misc. AG No. 77, Sept. Term 2015, Ct. App. Md., filed February 17, 2016
(Judgment entered on January 24, 2020; Motion for Reconsideration denied on
February 28, 2020)
Attorney Grievance Commission of Maryland v. Jason Edward Rheinstein, Case
No. C-02-CV-16-000597, Cir. Ct. Anne Arundel Co., filed February 22, 2016
(Final trial court opinion entered on August 19, 2019; Memorandum Order and
Opinion Defaulting Petitioner entered on June 27, 2019)

V

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED
LIST OF PARTIES

iii

LIST OF PROCEEDINGS

iv

TABLE OF AUTHORITIES

viii

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

2

The Court of Appeals of Maryland Disbars Petitioner for Purported
Misconduct With Which He Was Not Even Charged

2

Relevant Procedural History Leading to the Petitioner's Disbarment for
Purported Misconduct With Which He Was Not Even Charged

5

A Dispute Regarding the Legal Question of Whether Pre-Removal
Discovery Requests, Which Have Not Yet Become Due, are Nullified,
by Operation of Federal Law, Upon Removal of a Case to Federal
Court, Ultimately Leads to the Imposition of Harsh Discovery
Sanctions and a Default Judgment Against Petitioner

5

Due to the Procedures that Occurred as a Result of the Sanctions
Order, Petitioner Was Not Only Denied a Trial and Opportunity to
Defend With Respect to the Original Allegations in the Charging
Document; He Was Also Denied a Trial and Opportunity to Defend
With Respect to a Host of Unalleged Contentions With Which He
Was Not Originally Charged; Among the Unalleged Contentions
Was That Petitioner Made Misrepresentations or False Statements
During the December 2011 Hearing

9

Petitioner Raises the Issues Presented Here in Exceptions Before
the Court of Appeals of Maryland, But It Was to No Avail
12

vi
TABLE OF CONTENTS — Continued
Page
REASONS FOR GRANTING THE WRIT OF CERTIORARI
I.

THE QUESTIONS PRESENTED ARE OF NATIONAL IMPORTANCE

15
15

Because They Impact Large Numbers of Cases, the Federal Removal
15
Statutes Require Clear, Uniform Interpretation
The Lower Court's Decision With Respect to the Second Question
Presented Conflicts With Decades of Authorities from This Court on
Procedural Due Process, and This Court's Review Is Necessary to
Ensure that the 5th and 14th Amendment's Guaranties of Due
Process are Not Rendered Hollow and Meaningless
17
II. THE QUESTIONS PRESENTED ARE OUTCOME DETERMINATIVE

19

III. As TO THE ISSUES APPERTAINING TO THE FIRST QUESTION PRESENTED, THE
LOWER COURT'S DECISION WAS ERRONEOUS AND DEMONSTRATED A
FUNDAMENTAL MISUNDERSTANDING REGARDING THE FEDERAL STATUTORY
PREDICATES FOR PETITIONER'S ARGUMENTS
21
IV. THIS CASE IS A PERFECT VEHICLE FOR DECIDING THE QUESTIONS PRESENTED
CONCLUSION

25
26

vii

TABLE OF CONTENTS — Continued

Page
OPINIONS AND ORDERS IN THE RHEINSTEIN CASE

Opinion and Order of Court of Appeals of Maryland
(January 24, 2020)
Findings of Fact and Conclusions of Law by Trial Judge
(August 19, 2019)

A-2
A-85

Second Memorandum Opinion and Order by Trial Judge Defaulting Rheinstein
A-134
(July 12, 2019)
Order of the Circuit Court, Anne Arundel County Partially Granting Motion for
A-142
Reconsideration (July 9, 2019)
Memorandum Opinion and Order by Trial Judge Defaulting Rheinstein
(June 27, 2019)

A-143

Hearing Order of the Circuit Court of Anne Arundel County
(June 6, 2019)

A-148

Order of Court of Appeals of Maryland Denying Motion for Reconsideration
(February 28, 2020)

A-149

MOTION PAPERS TRANSCRIPTS AND
OTHER DOCUMENTS IN THE RHEINSTEIN CASE

Excerpt from AGC Proposed Findings of Fact and Conclusions of Law
(July 8, 2019)

A-151

Excerpt from AGC Answers to Respondent's Corrected First Set of
Interrogatories (August 31, 2017)

A-154

Answer to Petition for Disciplinary or Remedial Action
(July 20, 2017)

A-158

Petition for Disciplinary or Remedial Action
(February 17, 2016)

A-258

Transcript Excerpt Showing Ruling by Trial Judge Refusing to Take Judicial
Notice of Documents Offered by Rheinstein (July 1, 2019)
A-277
Excerpt from Deposition of AGC Designee (August 7, 2017)

A-297

OTHER DOCUMENTS

Overview of Modern Maryland Attorney Disciplinary Cases Involving Discovery
Sanctions Against Respondent Attorneys
A-303

vii'
TABLE OF AUTHORITIES
Page

CASES
Ex parte Robinson,
86 U.S. (19 Wall.) 505 (1873)

18

In re Burns & Wilcox, Ltd.,
54 F.3d 475 (8th Cir. 1995)

24

In Re Ruffalo,
390 U.S. 544 (1968)

18

MarcParc Valet, Inc. v. Jasser,
2014 WL 1334211 (D. Md., Apr. 1, 2014)

22

Matthews v. Eldridge,
424 U.S. 319 (1976)

18

McIntyre v. K-Mart Corp.,
794 F.2d 1023 (5th Cir. 1986)

23

Quackenbush v. Allstate Ins. Co.,
517 U.S. 706 (1996)

24

Riley v. Walgreen Co.,
233 F.R.D. 496 (S.D. Tex. 2005)

8, 9

Schware v. Bd. of Bar Exam'rs,
353 U.S. 232 (1957)

18

Steen v. Garrett,
2013 WL 1826451 (D.S.C., Apr. 30, 2013)

21

Sterling Say. Bank v. Fed Ins. Co.,
2012 WL 3143909 (E.D. Wash, Aug. 1, 2012)

7, 21

Stewart Org. v. Ricoh Corp,,
487 U.S. 22 (1988)

23

Taylor v. Rodriguez,
238 F.3d 188 (2d. Cir. 2001)

18

Va. ex rel. Kilgore v. Bulgartabac Holding Group,
360 F.Supp.2d 791 (E.D. Va. 2005)

7, 8, 9, 23

Village of DePue v. Exxon Mobil Corp.,
537 F.3d 775 (7th Cir. 2008)

23

Visicorp v. United Software Arts, Inc.,
575 F.Supp. 1528 (N.D. Cal. 1983)

23

ix
TABLE OF AUTHORITIES—Continued
Page
Zeeco, Inc. v. JPMorgan Chase Bank,
2017 WL 6539504 (N.D. Okla., Dec. 21, 2017)

24

CONSTITUTIONAL PROVISIONS
ii, 2, 19, 20

U.S. Const. amend. V
U.S. Const. amend. XIV, § 1

ii, 2, 18, 19, 20

STATUTES
28 U.S.C. § 1257

2

28 U.S.C. § 1441

23

28 U.S.C. § 1446(b)(1)
28 U.S.C. § 1446(d)
28 U.S.C. § 1450

5
23
passim

JUDICIAL RULES
Fed. R. Civ. P. 26(f)

21

OTHER AUTHORITIES
Federal Judicial Center's Integrated Database of civil cases, available at
https://www.fjc.gov/ research/idb/interactive/IDB-civil-since-1988

15

Rheinstein's Exceptions to the Hearing Judge's
Findings of Fact and Conclusions of Law

12

Rheinstein's Response to the AGC's
Proposed Recommendation for Sanction

13

1

PETITION FOR WRIT OF CERTIORARI
Petitioner, Jason Edward Rheinstein, respectfully petitions for a writ of
certiorari to review the judgment of the Court of Appeals of Maryland in this case.

OPINIONS BELOW
The opinion of the Court of Appeals of Maryland (A-2 — A-84) is reported. Atty.
Griev. Comm n. of Md. v. Rheinstein, 466 Md. 648, 223 A.3d 505 (2020). The court's
order denying Petitioner's motion for reconsideration (A-149) is unreported. The
referee's final opinion (A-85 — A-133) and the referee's opinions regarding the
imposition of discovery sanctions and a default judgment against Petitioner (A-134
— A-148) are all unreported.

JURISDICTION
The Court of Appeals of Maryland issued its judgment on January 24, 2020. (A2 — A-84). Petitioner filed a motion for reconsideration in that Court on February
24, 2020, which the Court denied in an order entered on February 28, 2020. (A-149).
Pursuant to this Court's March 19, 2020 Order relating to filing deadlines and
the ongoing public health concerns relating to COVID-19, this Petition is timely, as
it is filed within 150 days of the order denying Petitioner's Motion for

2

Reconsideration. This Court has jurisdiction to review the decision of the Court of
Appeals of Maryland pursuant to 28 U.S.C. § 1257.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
28 U.S.C. § 1450
28 U.S.C. § 1450 provides in relevant part, "Whenever any action is removed
from a State court to a district court of the United States . . . [Al injunctions,
orders, and other proceedings had in such action prior to its removal shall
remain in full force and effect until dissolved or modified by the district court."
U.S. Const. amend. V
The Fifth Amendment to the United States Constitution provides in relevant
part, "No person shall be . . . deprived of life, liberty, or property, without due
process of law"
U.S. Const. amend. XIV, § 1
Section 1 of the Fourteenth Amendment to the United States Constitution provides
in relevant part, "[N]or shall any state deprive any person of life, liberty, or
property, without due process of law . . . "

STATEMENT OF THE CASE
A. The Court of Appeals of Maryland Disbars Petitioner for Purported Misconduct
With Which He Was Not Even Charged.
This case began with the filing of a Petition for Disciplinary or Remedial Action
(the "Charging Document') by Respondent (hereinafter 'Respondent" or "24GC')
against Petitioner in the Court of Appeals of Maryland in February 2016. (A-258 —
A-276). With the exception of select averments containing excerpts of private email

3

communications allegedly authored by Petitioner, the Charging Document was
vague. but in general, it alleged that virtually everything Petitioner had done in
connection with his representation of a married couple named Charles and Felicia
Moore (the "Moores') in litigation against a private hard money lender named
Imagine Capital, Inc. ("Imagine') and other parties was "frivolous," and therefore,
constituted a violation of various then-extant Maryland Lawyers' Rules of
Professional Conduct (MLRPC). See generally id. Paragraph 12 of the Charging
Document vaguely alleged that Petitioner had made "irrelevant and
unsubstantiated" statements during a December 2011 hearing at the Circuit Court
for Baltimore City, Maryland, but neither that paragraph nor any other in the
Charging Document alleged Petitioner made any misrepresentations or false
statements in connection with the events at issue.1 Indeed, during the litigation,
Respondent even unequivocally admitted that it was not alleging Petitioner had
made any misrepresentations or false statements in connection with the events at
issue. See e.g., A-156 (AGC Ans. to Int. No. 28) (Noting "[AGC] does not allege that
[Rheinstein] made misrepresentations or false statements") (emphasis added). Also,
during the litigation, the attorney for the AGC who had investigated the matter and
1 See A-260, ¶ 12. In response to a deposition question seeking clarification about paragraph 12
of the Charging Document, the Respondent's designee specifically testified that the allegation did not
state that anything Petitioner led the court to believe was wrong. A-299 — A-300 (Q: "Well, okay. Is-but is [AGC] saying that something that--that [Rheinstein] led the Court to believe was wrong?" A:
"So I don't--that's not what's stated in the Petition for Disciplinary or Remedial Action") (emphasis
added).

4

who had authored the Charging Document, Lydia Lawless, explained in an open
court proceeding why it was that Petitioner had not been charged with making
misrepresentations. Namely, it was because the fact that Petitioner had not made
misrepresentations was undisputed. See Atty. Griev. Comm'n. ofMd. v. Rheinstein,
No. 1-cv-2550-MJG (D. Md.), ECF No. 95 at p. 51:7-9 ("When he says that we agree
that he didn't make misrepresentations, I think that's true. I think he believes
everything he says is true . . . ") (emphasis added). The Respondent never amended
the Charging Document nor did it ever disclaim or withdraw its conclusive
admissions that the Petitioner was not alleged to have made misrepresentations.
Nonetheless, and notwithstanding that, for reasons explained infra, Petitioner
had no trial and the court below did not have before it any evidence from which it
could have independently drawn the conclusion, the Court of Appeals of Maryland
disbarred the Petitioner and impugned his reputation on the primary asserted basis
that he had made "misrepresentations" during the same December 2011 hearing in
the Circuit Court for Baltimore City, Maryland that had been referenced in
paragraph 12 of the Charging Document. See A-81 ("[W]e shall impose a sanction of
disbarment, in line with our jurisprudence regarding similar misconduct, based
upon Rheinstein's misrepresentation to Judge Brown of the Circuit Court for
Baltimore City at the hearing which occurred in December of 2011 . . . ") (emphasis
added); A-83 ("Rheinstein misrepresented facts to Judge Brown in the Circuit
Court . . . ") (emphasis added). A-84 ("As an officer of the court, Rheinstein was

5

expected to manifest integrity, but, instead, misrepresented facts to the Circuit
Court with the intent to secure a favorable outcome") (emphasis added).
The Court's issuance of a judgment purporting to find the Petitioner guilty of
misconduct with which he was not even charged presents a prime illustration of
what can happen when one party is excluded from any meaningful participation in
a court proceeding.
B. Relevant Procedural History Leading to the Petitioner's Disbarment for
Purported Misconduct With Which He Was Not Even Charged.
1. A Dispute Regarding the Legal Question of Whether Pre-Removal Discovery
Requests, Which Have Not Yet Become Due, are Nullified, by Operation of
Federal Law, Upon Removal of a Case to Federal Court, Ultimately Leads
to the Imposition of Harsh Discovery Sanctions and a Default Judgment
Against Petitioner.
Shortly after the case was filed in February 2016, the Court of Appeals of
Maryland initially assigned a Judge of the Circuit Court for Anne Arundel County
Midge Harris') to serve as a referee, preside over a bench trial, and ultimately
issue an opinion containing findings of fact and conclusions of law regarding the
allegations in the Charging Document. A-5. Thereafter, in April 2016, the Petitioner
was served original process in the case along with discovery requests (hereinafter
the `Pre-Removal Discovery Requests') propounded by Respondent. In May 2016,
prior to when the Pre-Removal Discovery Requests came due, Petitioner filed a
timely notice of removal, pursuant to 28 U.S.C. § 1446(b)(1),2 and removed the case

2 For a brief summary of Petitioner's theory and arguments in support of the removal attempt,
see 2019 WL 3496290 at *7 *10.

6

to the United States District Court for the District of Maryland (the "Federal
Court1.3 In March 2017, the case was remanded back to the Maryland courts.
Following the remand, Petitioner filed a detailed Answer to the Charging
Document in the state court (A-158 — A-257), with hundreds of citations to specific
pages in various indexed and comprehensive document volumes that Petitioner
produced along with the Answer. See generally id. In late July 2017, Petitioner also
served his own discovery requests upon Respondent.
With respect to the Pre-Removal Discovery Requests, Petitioner notified
Respondent both directly and through a filing in the state court (the "August 2017
Filing14 that he believed they no longer remained valid and outstanding, and thus,
would need to be renewed or reissued in the event that Respondent still desired any
formal responses thereto. In support of his position, Petitioner cited a host of
authorities and specifically argued that the Pre-Removal Discovery Requests had
been nullified upon removal of the case to the Federal Court, by operation of federal
law, because (1) such requests do not count as "proceedings," under 28 U.S.C.
§ 1450, and thus, do not travel to the Federal Court; and (2) upon removal, such
requests could not have remained in the state court either because removal
terminates the case at the state court and leaves nothing behind. See id. at 12
(quoting Sterling Say. Bank v. Fed. Ins. Co., 2012 WL 3143909 at *2 (E.D. Wash,

3 See Atty. Griev. Comm'n. of Md. v. Rheinstein, Case No. 16-cv-1591-MJG (D. Md.).
4 A copy of the August 2017 Filing appears at ECF No. 35 in Atty. Griev. Comm'n. of Md. v.

Rheinstein, Case No. 17-2550-MJG (D. Md.).

7

Aug. 1, 2012) ("An abundance of case law substantiates the notion such discovery
requests do not count as "proceedings" pursuant to 28 U.S.C. 1450, and are thus
nullified upon removal to Federal court") (emphasis in the original)); Id. (quoting
Va. ex rel Bulgartabac Holding Group, 360 F.Supp.2d 791, 797 (E.D. Va. 2005)
("[O]nce the notice of removal is filed, the state court is divested of any jurisdiction
over the action. [A]fter removal, nothing remains in the state court . . . ") (emphasis
in the original)).
After being notified of Petitioner's position regarding the Pre-Removal
Discovery Requests, the Respondent did not take any steps to renew or reissue the
requests. Likewise, the Respondent did not inform the Petitioner (either directly or
by replying to the August 2017 Filing noted supra) that it contested Petitioner's
legal position. Also, the state court never issued a ruling in 2017 resolving the
issues raised in the Respondent's motion or the August 2017 Filing, thereby leaving
the dispute of whether the Pre-Removal Discovery Requests remained valid,
unresolved. For that reason, the Petitioner did not provide formal answers to the
Pre-Removal Discovery Requests in 2017. Meanwhile, in August 2017, Petitioner
received some responses (including those cited in the previous section) from
Respondent to his discovery requests.
No additional relevant proceedings occurred in the case until May 2019, by
which time Judge Harris had retired, so the Court of Appeals of Maryland assigned
a different judge of the Circuit Court for Anne Arundel County ("Judge Klavans') to
serve as the referee. Id. In early June 2019, Judge Klavans issued an order

8

scheduling a trial in the case over six days in July 2019. A-148. Thereafter,
however, on June 12, 2019, Respondent filed a Motion for Sanctions and/or Motion
in Limine (the Vune 2019 Sanctions Motion') seeking discovery sanctions against
the Petitioner for his alleged failure to formally respond to the Pre-Removal
Discovery Requests. A-148.5
On June 27, 2019, Judge Klavans issued a Memorandum Opinion granting the
June 2019 Sanctions Motion (hereinafter the 'Sanctions Order'). Without analysis
or explanation, Judge Klavans simply rejected Petitioner's argument that the PreRemoval Discovery Requests had been nullified by the first removal of the case and
noted in relevant part, "[Petitioner's] position that [the Pre-Removal Discovery
Requests] had been somehow nullified by virtue of his removal of the matter to
Federal Court is unsupported in law." Id. On that basis, Judge Klavans concluded
that the Petitioner had not provided timely responses to the Pre-Removal Discovery
Requests, and he imposed, upon Petitioner, the harshest discovery sanctions of any
imposed in a Maryland attorney disciplinary case since at least the time of when
5 The following day, on June 13, 2019, in an attempt to resolve the discovery dispute as
expeditiously as possible, Petitioner provided (what he viewed, given his legal position, as voluntary)
formal responses to the Pre-Removal Discovery Requests.

See Riley v. Walgreen Co., 233 F.R.D. 496,

499 (S.D. Tex. 2005) (Defendants' answers to pre-removal discovery requests that had been nullified
upon removal were voluntary, and thus, not untimely). Petitioner included language in the styling of
his responses to place the AGC on unambiguous notice that delivery of the responses did not
constitute a waiver of his position that the Pre-Removal Discovery Requests were legally invalid
when the June 2019 Sanctions Motion was filed.

9

the current system for Maryland attorney disciplinary cases was adopted.6
Petitioner's case also notably stands alone, as the only modern Maryland attorney
disciplinary case where the alleged failure serving as the predicate for the
imposition of a discovery sanction resulted from a technical legal dispute over
whether the discovery requests at issue remained valid.?
2. Due to the Procedures that Occurred as a Result of the Sanctions Order,
Petitioner Was Not Only Denied a Trial and Opportunity to Defend With
Respect to the Original Allegations in the Charging Document; He Was Also
Denied a Trial and Opportunity to Defend With Respect to a Host of
Unalleged Contentions With Which He Was Not Originally Charged; Among
the Unalleged Contentions Was That Petitioner Made Misrepresentations or
False Statements During the December 2011 Hearing.
The Sanctions Order directed that Petitioner's Answer and all his then-pending
filings in the case be stricken. A-137. Without requiring the AGC to produce any
actual evidence, it imposed a default judgment against Petitioner and ordered that
all of AGCs' original allegations in the Charging Document be deemed admitted. Id.
Due to the procedures that followed, however, the practical effect of the Sanctions
Order was not merely to deny Petitioner a trial and opportunity to defend with
respect to the AGC's original allegations in the Charging Document, but also to
deny Petitioner a trial and opportunity to defend with respect to a host of
"unalleged contentions," asserted for the first time in a proposed trial court opinion
filed after the default judgment had already been entered.

6 See A-303 (Overview Table of Modern Maryland Attorney Disciplinary Cases Involving

Discovery Sanctions Against Defendant Attorneys).
7 See id.

10

Specifically, the Sanctions Order directed the AGC's counsel to prepare and file
a draft opinion containing proposed findings of fact and conclusions of law
(hereinafter the 'Proposed Opinion'). A-137. While it provided for the Petitioner to
have an opportunity to present oral argument regarding the Proposed Opinion, it
did not provide for Petitioner to have any opportunity to file a written response or
present any evidence in connection with his argument.8
On July 8, 2019, the AGC filed the Proposed Opinion, an intricate document
that was 72 pages long. See A-153. In addition to merely containing proposed
findings of fact and conclusions of law with respect to the original allegations, the
Proposed Opinion contains scores of "unalleged contentions." See e.g., A-152 (showing
four distinct "unalleged contentions" on just one page of the Proposed Opinion).
Among the "unalleged contentions" was that Petitioner had made "misleading
statements" at the December 2011 hearing.9

8 On account of the default, the Court even declined a request by Petitioner to take judicial
notice of publicly-available documents (such as the court filings and official transcripts from the
recorded proceeding about which AGC was making claims), which would have facilitated the
Petitioner's ability to present a meaningful argument. See A-292—A-295.
9 The purpose of many of the "unalleged contentions" appeared to have been to transform what
would have otherwise been innocent and non-violative conduct, as originally alleged in the Charging
Document, into violative conduct. For example, as originally written, paragraph 12 of the Charging
Document alleged something (i.e., that Petitioner made "irrelevant" and/or "unsubstantiated"
statements in a court hearing) attorneys do every day, and which even if true, would constitute an
innocent and non-violative act. By contrast, the "unalleged contention" in the Proposed Opinion

11

On July 10, 2019, Judge Klavans heard oral argument on the Proposed Opinion.
During the argument, Petitioner identified as many of the "unalleged contentions"
in the Proposed Opinion (including the "unalleged contention" that he made
"misrepresentations" or "misleading statements" to Judge Brown during the
hearing in December 2011) as was practically possible, and he objected to their
acceptance on the basis of, inter alia, the due process grounds raised here.
Thereafter, Petitioner filed a Motion to Supplement the Record in which he
sought permission to file a comprehensive written response to the Proposed
Opinion. He further sought, once again, for the Court to take judicial notice of the
publicly available records from the underlying proceedings (including the
transcripts from the December 2011 hearing at issue). Petitioner's request was
denied, and on August 19, 2019, Judge Klavans issued his opinion (the 'Referee's
Opinion'). Without having had the benefit of a written response from Petitioner,
Judge Klavans adopted all the material portions of the Proposed Opinion,10
practically verbatim, with just a handful of non-material and stylistic differences.
As such, the "unalleged contentions," which appeared for the first time in the
Proposed Opinion, after the default had been entered, were accepted. See e.g., A-122

alleged something

(i.e.,

that Petitioner made "false" or "misleading" statements and/or

"misrepresentations"), which if true, would constitute a violation of the disciplinary rules.
10 The only portion of the Proposed Opinion that Judge Klavans did not adopt, practically
verbatim, was a proposed procedural history, which spanned approximately 20 pages in the Proposed
Opinion, and which Judge Klavans reduced to approximately two pages. A-85 — A-86.

12

(Purporting to find Petitioner made "misleading statements" to Judge Brown at the
December 2011 Hearing, notwithstanding the AGC itself had admitted the
Charging Document had not alleged that, and that Petitioner was never afforded
a trial or opportunity to defend on that "unalleged contention"); A-126 — A-133
(Purporting to find the existence of numerous aggravating factors, notwithstanding
that the purported aggravation was not originally alleged in the Charging
Document and Petitioner was never afforded a trial or opportunity to defend as to
any of alleged aggravation).
3. Petitioner Raises the Issues Presented Here in Exceptions Before the Court
of Appeals of Maryland, But It Was to No Avail.
After the Referee's Opinion was entered, the case proceeded to an exceptions
stage at the Court of Appeals of Maryland. In his filings before the Court of Appeals
of Maryland, Petitioner raised, among others, the issues he presents here. For
example, in his exceptions filed in the Court of Appeals of Maryland on September
20, 2019, Petitioner contested Judge Klavans' imposition of discovery sanctions on
the basis of the same federal removal law arguments he made before the trial court,
and which are implicated by the first question presented here.11 In both his
exceptions and his response to the AGC's Recommendation for Sanction, filed in the
lower court on October 18, 2019, Petitioner contested Judge Klavans' adoption of
the "unalleged contentions" (including the "unalleged contention" that he made

11 See
at pp. 27-29.

Rheinstein's Exceptions to the Hearing Judge's Findings of Fact and Conclusions of Law

13

"misleading statements" or "misrepresentations" to Judge Brown during the
December 2011 hearing) on the basis, of inter alia, the same federal constitutional
due process arguments he made before the trial court, and which are 'implicated by
the second question presented here.12
The lower court rejected the Petitioner's federal law argument that the PreRemoval Discovery Requests had been nullified upon the first removal of the case;
solely on that basis, it concluded there had been a failure of discovery, and it upheld
the June 2019 Sanctions Order. A-38—A-40. As fully explained infra, although the
lower court purported to provide more analysis than Judge Klavans, that analysis
was faulty and did not squarely address the Petitioner's arguments; indeed, it
appears the lower court failed to grasp the substance of the Petitioner's arguments
and the fact they had been predicated upon the operation of the federal removal
statutes. As such, the lower court fell for a red herring issue, which had absolutely
nothing to do with Petitioner's arguments, regarding differences in federal and state
court procedural rules governing the timing with which initial discovery requests
may be issued. The lower court's conclusions conflict with an abundance of
authorities (including cases from the federal appellate courts), regarding the
relevant issues.

12 See Id. at pp. 46, 50-67. 122-126; See Rheinstein's Response to the AGC's Proposed
Recommendation for Sanction at pp. 7-27. Petitioner further raised the issues pertinent to the
second question presented in a verified Motion for Reconsideration filed in the lower court on
February 24, 2020.

14

The lower court largely ignored Petitioner's due process arguments about
"findings" resulting from the "unalleged contentions," for which Petitioner had no
trial or opportunity to defend. As such, it adopted Judge Klavans "findings"
regarding those matters. Among such "findings" were the ones regarding the
purported "misrepresentations," which served as the primary asserted basis for the
Court's disbarment of Petitioner. See pages, 2-3, supra. In adopting said findings,
the Court simply ignored the AGC's admissions that Petitioner had not been alleged
to have made any "misrepresentations" or "misleading statements" originally.
Indeed, the Court never provided any explanation for how, notwithstanding that
Petitioner had been denied a trial, he could be found guilty of having made
"misrepresentations" or "misleading statements," when as of the time the default
judgment was entered, it remained undisputed, according to the AGC's own
admissions, that Petitioner had not been charged with making "misrepresentations"
or "misleading statements." See pp. 2-3, supra. Among other things, the Court also
ignored the Petitioner's protests regarding his having been denied an opportunity to
defend any of the alleged aggravation found by Judge Klavans.

15

REASONS FOR GRANTING THE WRIT OF CERTIORARI
I.

THE QUESTIONS PRESENTED ARE OF NATIONAL IMPORTANCE.
A. Because They Impact Large Numbers of Cases, the Federal Removal
Statutes Require Clear, Uniform Interpretation.
Every year state-court defendants remove tens of thousands of cases to federal

court.13 In 2019 alone, approximately 35,000 cases were removed, a number
representing nearly 12% of all cases filed in federal courts that year.14 Each year,
thousands of removal cases are remanded back to state courts. In 2019, for example,
over 4,300 cases were remanded back to state courts.15 The numbers for 2018 are

13 All case data are drawn from the Federal Judicial Center's Integrated Database of civil
cases, available at https://www.fjc.gov/ research/idb/interactive/IDB-civil-since-1988.
14 A search for cases that (1) originated with removal and (2) were filed between January 1,
2019 and December 31, 2019 produces a list of 35,289 cases. A search for all cases that were filed
between January 1, 2019 and December 31, 2019 produces a list of 296,138 cases. 35,289/296,138 =
11.9%.
15 A search for cases that (1) originated with removal, (2) were terminated by a remand to
state court, and (3) were filed between January 1, 2019 and December 31, 2019 produces a list of
4,329 cases.

16

quite similar. Approximately 33,000 cases were removed,16 of which about 5,400
were remanded back.17
Quite simply, the federal removal statutes impact large numbers of cases each
year, and thus, questions regarding their legal effects and operation are a matter of
national importance. Furthermore, uniform construction of widely-applicable
statutes is highly desirable because, among other things, (1) it promotes judicial
efficiency by alleviating the need for frequently-recurring issues to be decided anew
over and over again; and (2) it facilitates the ability of interested persons to
understand the statute as well as its scope and reach. The first question presented
here seeks insight about basic and fundamental effects of the removal statutes that
should be understood by litigants in all removal cases. Resolution of the first
question presented will benefit future litigants and courts by resolving an issue,
which as discussed, infra, has frequently led to discovery disputes in removal cases.
By contrast, passing on the question here would do a disservice to future litigants
and courts because, given the large numbers of cases removed each year, the
question is bound to recur. Furthermore, although uniform resolution of issues
raised in the first question would be highly-desirable, it is not every day that this

16 A search for cases that (1) originated with removal and (2) were filed between January 1,
2018 and December 31, 2018 produces a list of 33,033 cases.
17 A search for cases that (1) originated with removal, (2) were terminated by a remand to
state court, and (3) were filed between January 1, 2018 and December 31, 2018 produces a list of
5,423 cases.

17

Court has an opportunity to provide such a uniform resolution because although the
issues arise (and require some form of judicial resolution) in large numbers of cases,
they frequently arise and get resolved early enough in each case that they evade
appellate review. Since the issues presented are capable of repetition, yet evading
review, the Court should not pass up an opportunity to resolve them with a uniform
interpretation of the removal statutes.
B. The Lower Court's Decision With Respect to the Second Question Presented
Conflicts With Decades of Authorities from This Court on Procedural Due
Process, and This Court's Review Is Necessary to Ensure that the 5th and
14th Amendment's Guaranties of Due Process are Not Rendered Hollow and
Meaningless.
The lower court's decision in this case disbarred Petitioner and impugned his
reputation and integrity on the purported basis that he had committed
"misrepresentations" during the December 2011 Hearing, notwithstanding that
Respondent had conclusively admitted that it had not charged Petitioner with
making misrepresentations, and as such, any assertion that Petitioner made
"misrepresentations" was beyond the scope of the default and anything that could
have been deemed admitted. Thus, as to the "unalleged contention" that he made
"misrepresentations" and all the other "unalleged contentions" (including the
contentions inuring to the alleged "aggravating factors"), Petitioner remained
entitled to notice and an opportunity to defend himself before judgment was entered
against him on such contentions. As to the "unalleged contentions," Petitioner had
neither notice nor any opportunity to defend, and thus, the lower court's entry of
judgment against Petitioner on the basis of "unalleged contentions" was in conflict

18

with more than a century of precedents from this Court. "A State cannot exclude a
person from the practice of law or from any other occupation . . . for reasons that
contravene the Due Process or Equal Protection Clause[s] of the Fourteenth
Amendment." Schware v. Bd. of Bar Exam'rs, 353 U.S. 232, 238-39 (1957). Attorney
disciplinary cases are "adversary proceedings of a quasi-criminal nature." In Re
Ruffalo, 390 U.S. 544, 550-51 (1968) (emphasis added). "[B]efore a judgment
disbarring an attorney is rendered he should have notice of the grounds of
complaint against him and ample opportunity of explanation and defence" (sic). Ex
parte Robinson, 86 U.S. (19 Wall.) 505, 512 (1873). "This is a rule of natural justice,
and should be equally followed when proceedings are taken to deprive him of his
right to practice his profession, as when they are taken to reach his real or personal
property." Id. The principle that there must be citation before hearing, and hearing
or opportunity of being heard before judgment, is essential to the security of all
private rights. Without its observance no one would be safe from oppression
wherever power may be lodged. Id.
To comply with due process requirements, a hearing must be held "at a
meaningful time and in a meaningful manner." Matthews v. Eldridge, 424 U.S. 319,
333 (1976). "A hearing is not meaningful if a[n] [accused] is given inadequate
information about the basis of the charges against him." Taylor v. Rodriguez, 238
F.3d 188, 193 (2d. Cir. 2001). For a hearing to be meaningful, "the charge must be
known before the proceedings commence" so the accused has a reasonable
opportunity to prepare his defense. Ruffalo, 390 U.S. at 550-51 (emphasis added).

19

At bottom, this Court's review of the second question is necessary to ensure that
the 5th and 14th amendments guaranties of due process are not rendered hollow
and meaningless.
II. THE QUESTIONS PRESENTED ARE OUTCOME DETERMINATIVE.
The questions presented are outcome determinative in this matter. With respect
to the first question, the record is clear that the only basis for imposing the
Sanctions Order upon the Petitioner in the first place was that the Maryland courts
rejected the Petitioner's arguments, predicated upon the operation of the federal
removal statutes, that the Pre-Removal Discovery Requests had been nullified upon
removal to the Federal Court, and as such, that they could not have remained viable
following the remand until they were renewed or reissued. If the Court agrees with
Petitioner's argument as to the first question presented, then it would necessarily
follow that there was no failure of discovery upon which to predicate the Sanctions
Order and that Petitioner remains entitled to a trial and opportunity to defend on
all of the AGC's claims in this case. Thus, full reversal and/or vacatur of the
judgment below would be warranted, and the case should be remanded to the Court
below so Petitioner may be given a new trial on all the AGC's claims. If the Court
concludes that Petitioner is correct as to the first question, it need not reach the
second question. By contrast, if the Court concludes that the Petitioner is not
correct as to the first question, it should resolve the second question.
With respect to the second question, the record is clear that the primary
asserted basis for the Court's decision to disbar Petitioner was that he purportedly

20

made "misrepresentations" to a court during a December 2011 hearing. The record
is also clear from the AGC's own admissions that it is undisputed Petitioner was not
originally alleged to have made any "misrepresentations," and that the notion the
Petitioner made "misrepresentations" was an "unalleged contention" that first
appeared in the Proposed Opinion, after the default judgment had already been
entered. If this Court agrees with Petitioner, as to the second question, and holds
that, in a default judgment case, where a defendant is denied a trial and
opportunity to defend, the right to procedural due process, guaranteed by the Fifth
and Fourteenth Amendments to the United States Constitution, limits the scope of
matters that may be deemed admitted to those for which the defendant was on
notice as of the time the default was entered, then reversal and/or vacatur of the
judgment below would be warranted along with a remand and instructions to either
(1) Afford Petitioner a trial and opportunity to defend, as to, at least, the "unalleged
contentions;" and thereafter make a new determination, as to the outcome of the
matter, based upon the results from the trial, or alternatively, (2) disregard any
"findings" and/or "conclusions" resulting from the "unalleged contentions;" and
make a new determination, as to the appropriate outcome of this matter, based only
upon "findings" and "conclusions" resulting from the original allegations in the
Charging Document.
Thus, resolution of either question in favor of Petitioner would warrant vacatur
and/or reversal of the judgment below, and the outcome following further
proceedings will likely be very different, thereby leaving Petitioner better off.

21

III. AS TO THE ISSUES APPERTAINING TO THE FIRST QUESTION PRESENTED, THE LOWER
COURT'S DECISION WAS ERRONEOUS AND DEMONSTRATED A FUNDAMENTAL
MISUNDERSTANDING REGARDING THE FEDERAL STATUTORY PREDICATES FOR
PETITIONER'S ARGUMENTS.

The lower court rejected Petitioner's federal law argument that the PreRemoval Discovery Requests had been nullified upon the first removal of the case.
A-36. However, the lower court did not precisely address the argument Petitioner
had made, and it did not even acknowledge the bulk of authorities he had cited in
support thereof.18 Indeed, the lower court's faulty analysis suggests that it failed to
grasp the substance of Petitioner's arguments, and the fact that the arguments
were predicated upon the operation and effect of the federal removal statutes
themselves rather than on the differences between federal and state court discovery
rules. As such, the lower court focused its analysis on the red herring issue that
federal discovery rules are different than the state discovery rules, inasmuch as
discovery requests may be served simultaneously with service of the complaint and
summons in state court, while they may not be served in federal court until the time
of the Rule 26(f) conference. See A-39. While the differences in the rules do supply a
rationale upon which some federal courts have relied to conclude that pre-removal

18 The lower court incorrectly stated that Petitioner had relied upon only three unreported
district court opinions to support his position. A-36. Although it is true that Petitioner relied on
Steen v. Garrett, 2013 WL 1826451 (D.S.C., Apr. 30, 2013) and Sterling Say. Bank v. Fed. Ins. Co.,
2012 WL 3143909 (E.D. Wash, Aug. 1, 2012), Petitioner relied on a host of other authorities
(including reported ones) as well. See e.g., Atty. Griev. Comm'n. of Md. v. Rheinstein, Case No. 17-cv2550-MJG (D. Md.), ECF No. 35 at p. 12.

22

discovery requests issued in state court need not be answered in federal court
following removal,19 such rationale was entirely irrelevant to Petitioner's argument,
which hinges upon the meaning and effect of certain language in the removal
statute, and not on court discovery rules.
The lower court's statement that "the federal court cannot 'nullify' state
discovery requests . . . "20 further exemplifies its focus on the red herring issue
surrounding the differences in the procedural rules between federal and state
courts. Petitioner agrees the federal court's procedural rules would be of no
application following remand, but the Court's statement was wholly inapposite.
Petitioner did not argue that the federal court nullifies state discovery. He argued
that the operation of the federal removal statutes did. The operation and effect of
the federal removal statutes upon removal of the case have many consequences that
impact state court proceedings. One consequence, for example, is that, upon

19 See e.g., MarcParc Valet, Inc. v. Jasser, 2014 WL 1334211 (D. Md., Apr. 1, 2014). The lower
court erroneously stated that Petitioner had relied on MarcParc to argue the Pre-Removal Discovery
Requests had been nullified upon removal, but in fact, that was not true. See Case No. 17-cv-2550MJG (D. Md.), ECF No. 35 at p. 12 (Showing MarcParc was not one of the authorities cited for
Petitioner's original argument). While Petitioner cited MarcParc in his Exceptions before the Court
of Appeals of Maryland, it was in another section of the brief, and in support of an entirely different
proposition regarding the equities of defaulting a party whose reason for not having answered
discovery requests was the existence of a good faith legal argument the requests were invalid. That
issue is entirely distinct from the one presented here.
20 See A-39.

23

effectuation of the removal, the state court is immediately and completely divested
of jurisdiction over the case. See 28 U.S.C. § 1446(d). Because federal law preempts
state law in the event of any conflict, the operation and effect of a federal removal
statute, such as 28 U.S.C. § 1450, could be held to cause a lingering consequence on
the state proceeding even after it is remanded. For example, consider the lower
court's proposition that pre-removal discovery requests "retain viability upon
remand." A-40. Even assuming, arguendo, that the lower court's proposition were a
conclusion of state law, rather than federal law, it would be pre-empted if this Court
agrees with Petitioner's assertions that (1) pre-removal discovery requests do not
count as "proceedings" under § 1450, and thus, do not travel to the federal court
upon removal;21 and (2) following removal pre-removal discovery requests cannot
remain in the state court either because, under federal removal law, nothing is left
behind in the state court.22 The reason the lower court's proposition, if considered to

21 To the extent that the lower court's decision is a conclusion of federal law, it is in conflict
with the decision of the Fifth Circuit in

McIntyre v. K-Mart Corp., 794 F.2d 1023 (5th Cir. 1986) and

a host of other federal court decisions dating back at least as far as

Visicorp v. United Software Arts,

Inc., 575 F.Supp. 1528, 1531 (N.D. Cal. 1983), abrogated on other grounds, Stewart Org. v. Ricoh
Corp,, 487 U.S. 22 (1988).
22

See Va. ex rel. Kilgore v. Bulgartabac Holding Group, 360 F.Supp.2d 791, 797 (E.D. Va.

2005) ("[O]nce the notice of removal is filed, the state court is divested of any jurisdiction over the
action. [l] fter removal, nothing remains in the state court . . . ");

Village of DePue v. Exxon Mobil

Corp., 537 F.3d 775, 783 (7th Cir. 2008) ("Removal under 28 U.S.C. .$ 1441 simply does not leave
behind a pending state proceeding . . . ");

In re Burns & Wilcox, Ltd., 54 F.3d 475, 477 (8th Cir.

24

be one of state law, would be pre-empted is because it is not compatible with the two
propositions of federal law noted above. The proposition that pre-removal discovery
requests "retain viability upon remand" necessarily implies either: (a) that the PreRemoval Discovery Requests were alive in Federal Court as of the time the remand
order was signed; or (b) that, following removal, the Pre-Removal Discovery
Requests somehow remained in the state court, such that they could become viable
again in the event the case was later remanded. However, proposition (a) is clearly
in direct conflict with the notion that pre-removal discovery requests do not count as
"proceedings" under § 1450, and thus, do not travel to federal court. Likewise,
proposition (b) is in direct conflict with the notion that after removal, nothing is left
behind in the state court. Thus, if this Court agrees with Petitioner regarding the
two propositions of federal law stated above, the lower court's proposition would
necessarily fail.
It is highly notable that the lower court's analysis did not discuss or analyze
§ 1450, or whether pre-removal discovery requests count as "proceedings" under
§ 1450, and thus, whether they travel to the federal court. The lower court also did
not analyze any authorities cited by Petitioner for the proposition that following

1995), abrogated in part on other grounds, Quackenbush v. Allstate Ins. Co., 517 U.S. 706 (1996)
("No such [state] proceeding exists here since the entire state court action was removed to federal
court. There is no ongoing state action . . . ") (emphasis added); see also Zeeco, Inc. v. JPMorgan
Chase Bank, 2017 WL 6539504 at *3 (N.D. Okla., Dec. 21, 2017) (collecting authorities that removal
leaves nothing behind in a state court).

25

removal, the Pre-Removal Discovery Requests could not remain at the state court
because, under the removal statutes, nothing is left behind in the state court after
removal.23
In sum, the lower court's decision, as to the question of whether the PreRemoval Discovery Requests had been nullified upon the first removal of the case,
and therefore needed to be renewed or reissued upon remand to become effective,
was wrong, and for the reasons stated supra, its conclusions conflict with the
decisions of numerous federal courts (including the Fifth, Sixth and Eighth Circuits)
on the dispositive issues.
W. THIS CASE IS A PERFECT VEHICLE FOR DECIDING THE QUESTIONS PRESENTED.
This case presents a clean vehicle for this Court to decide the questions
presented because (1) the material facts are all undisputed; (2) the record is clear
that the issues presented were all well-preserved, and (3) no other issues cloud this
Court's review of the case.

23 The second point was critically important because it explains why, following remand, the
Pre-Removal Discovery Requests could not have become viable again. Immediately following
remand, when the case was first returned to the state court, the only things that could have been
outstanding in the case were those that had been outstanding in the Federal Court at the time the
remand order was signed. If there were no outstanding discovery requests pending in the Federal
Court as of the time of remand, there would not have been any discovery requests to come back to
the state court at the time of remand.

26

CONCLUSION
The Petition for Writ of Certiorari should be GRANTED.

Respectfully submitted,

/S/ JASON EDWARD RHEINSTEIN
JASON EDWARD RHEINSTEIN
PETITIONER PRO SE
P.O. BOX 1369
SEVERNA PARK, MD 21146
(410) 340-8396
JASON@JER-CONSULTING.COM
JULY 27, 2020

